by Pro Se Petitioner Stan J. Caterbone - From U.S. Third Circuit Case No. 19-2712 and U.S. District Court 19-2052

PROOF OF SERVICE
I, STAN J. CATERBONE, PRO SE PETITIONER , do swear or declare that on or about
this date, August 31, 2020, as required by Supreme Court Rule 29 I have served the
enclosed MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS and PETITION FOR A
WRIT OF CERTIORARI on each party to the above proceeding or that party's counsel, and
on every other person required to be served, by depositing an envelope containing the
above documents in the United States mail properly addressed to each of them and with
first-class postage prepaid, or by delivery to a third-party commercial carrier for delivery
within 3 calendar days.

Attorneys for Respondents
Acting Solicitor General
United States Department of
Justice
Jeffrey B. Wall
202-514950 Pennsylvania Avenue, NW
Counsel of Record
2217
Washington, DC 20530-0001
SupremeCtBriefs@USDOJ.gov
SupremeCtBriefs@USDOJ.gov

202-514-2217
DATE August 31, 2020

ZL
V

Stan J. Caterbone, Pro Se Litigant
ADVANCED MEDIA GROUP
1250 Fremont Street
Lancaster, PA 17603
www.amgglobalentetainmentgroup.com
stancaterbone@gmail.com

717-327-1566

U.S. Supreme Ct. Petition re Lancaster County Prison

Page No. 2 of 40

Monday August 31,2020

4
by Pro Se Petitioner

J. Caterbone - From U.S. Third Circuit Case no. 19*2712 and U.S. District Court 19-2052

PROOF OF SERVICE
I, STAN J. CATERBONE, PRO SE PETITIONER , do swear or declare that on or about
this date, August 12, 2020, as required by Supreme Court Rule 29 I have served the
enclosed MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS and PETITION FOR A
WRIT OF CERTIORARI on each party to the above proceeding or that party's counsel, and
on every other person required to be served, by depositing an envelope containing the
above documents in the United States mail properly addressed to each of them and with
first-class postage prepaid, or by delivery to a third-party commercial carrier for delivery
within 3 calendar days.

Attorneys for Respondents
Acting Solicitor General
United States Department of
Justice
Jeffrey B. Wall
202-514Counsel of Record 950 Pennsylvania Avenue, NW 2217
Washington, DC 20530-0001
SupremeCtBriefs@USDOJ.gov
SupremeCtBriefs@USDOJ.gov

202-514-2217
DATE August 12, 2020

A

Stan J.'Caterbone, Pro Se Litigant
ADVANCED MEDIA GROUP
1250 Fremont Street
Lancaster, PA 17603
www.amgglobalentetainmentgroup.com
stancaterbone@gmail.com

717-327-1566

U.S. Supreme Ct Petition re Lancaster County Prison

Page No. 2 of 94

Wednesday August 12,2020

fay Pro Se Petitioner Stan J. Caterbone - From U.S. Third Circuit Case No. 19-2712 and U.S. District Court 19-2052

5

t r*

+■ J *•

jL
“5

■M

i

-

> -K,'

"S'

Srt~

ml
!K

-i

«r

*rt

G
U
(M

miij

<9
iri
O

0
•H

_ T tl.

CO
-J

aa.

CL
< ui

CD

^
rr fc ^ £
uj bb cc c/i

w

23

■■■

O

Sa
yo

^ tn & “I

CJ UU -> «i G
ru. hr 2 O
—

x
d

"t~

■
*

—
*

<=£

SI

m in <5 < w

,

■*

sI2
^r 5

ga

x 3 ,j
<
i“ CD P^tlT
U. MOyn

\

- J
i. t-

**

-

g-o§fcI
r\ I— x e a-

O ^

.2
‘

ofc

!

3E
a

)

□
LU
I—

z

3

*
APPENDIX A - Opinions Below

i

Page No. 17 of 25

Wednesday August 12, 2020

Paco K'1fl r^\ t Aoncro n <-*

i-\

____ ^

,—*»

* #« s*

~ ,

by Pro Se Petitioner Stan J. Caterbone - From U.S. Third Circuit Case No. 19-2712 and U.S. District Court 19-2052

IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF PENNSYLVANIA
STAN, r. CATERBONE,
’laintiff,
■f.

CIVIL ACTION NO. 19-CV-20S2

LANO lSTER COUNTY PRISON, et al.,
lefendants.
MEMORANDUM
//

SCHME

JUNE

,2019

1 Vo se Plaintiff Stan J. Caterbone, a pretrial detainee confined at Lancaster County Pri son
(“LCP”) > has filed a civil rights Complaint pursuant to 42 U.S.C. § 1983 and a Motion to

Proceed In Forma Pauperis. The Defendants are LCP and Cheryl Steeberger, the Warden of
LCP- Bicause it appears that Caterbone is unable to afford to pay the filing fee, the Court will
grant hit i leave to proceed informa pauperis.1 For the following reasons, the Complaint will be
dismisse i with prejudice as to LCP and without prejudice as to Steeberger pursuant to 28 U.S.C.
§ 1915(e !(2)(B)(i) and (ii).
I-

F4CTS
C aterbone asserts that on numerous dates between when he was taken into custody at

LCP on J anuary 16,2019 and April 22,2019, he made requests to staff members for writing
materials and to have legal documents copied so that he could file them with the Lancaster
County <y >urt that is hearing his criminal case and possibly other courts.2 (ECF No. 1 at 4-7.)

l

Howeve r, as Caterbone is a prisoner, he will be obligated to pay the filing fee in installments in
accordam e with the Prison Litigation Reform Act. See 28 U.S.C. § 1915(b).
2 A searcl of publicly available records shows that Caterbone was ordered detained on January
17, 2019 < it LCP after being arraigned on charges of criminal harassment. See Commonwealth v.
Caterbon, CP-36-CR-6961-2018. That charge was nolleprossed on March 8,2019 after he was

APPENDIX A - Opinions Below
I

Page No. 18 of 25

> t

Wednesday August 12, 2020

C.-in Al ,

"it

a

)».

.

.

____

'‘by Pro Se Petitioner Stan J. Caterbone - From U.S. Third Circuit Case No. 19-2712 and U.S. District Court 19-2052

Appare atly, his requests were not responded to in as prompt a manner as he would have
prefem d. (Id.) He avers that he has been denied access to the United States Supreme Court, the
United states Court of Appeals for the Third Circuit, this Court, other federal district courts,
the cou ts of Florida and Pennsylvania, including the Lancaster County courts. (Id. at 8.) He
asserts : nterference with pending cases that he has self-valued at $650 million for purposes of his
bankruj tcy case that is pending before the Third Circuit (Id.) He seeks immediate access to
copying services, immediate charging of his cell phone and access to the contacts he has saved
there, tr :atment for the suffering from pain and torture resulting in the deterioration of his ability
to walk, and a criminal investigation into his allegations.

ii.

Standard of review
he Court will grant Caterbone leave to proceed informa pauperis because it appears

that he i i incapable of paying the fees to commence this civil action. Accordingly, 28 U.S.C. §
1915(e)( 2)(B) requires the Court to dismiss the Complaint if, among other things, it is frivolous
or fails t) state a claim. A complaint is frivolous if it “lacks an arguable basis either in law or in
arraign© I on charges of stalking. See Commonwealth v. Caterbone, CP-36-CR-921-2019. Those
charges 3 emain pending. Caterbone has been represented by counsel the entire time he has been
detained A search of publicly available records also shows that Caterbone has a bankruptcy
appeal p< mding before the Third Circuit. See In re Caterbone, No. 18-1527. He also has two
appeals | ending from decisions of this Court. See Caterbone v. NSA, No. 18-3326 (dismissing
earlier ci ril action); Caterbone v. Lancaster Ctny. Adult Probation., No. 19-1799 (dismissing
habeas p utition).
Althoui h Caterbone states in conclusory fashion that he has suffered pain, he does not appear
to assert i claim in this case based on a physical injury he has suffered at LCP. The Court notes
that Cate bone filed a pleading he captioned “Application for Supplemental Complaint
Injunctio l for Medical Treatment.” (ECFNo.5.) Therein, Caterbone states that he filed a
petition i i his criminal case asking for “house arrest due to degrading medical conditions and
lack of a< equate treatment” (Id. at 1.) He requests the “Clerk of Court for the Eastern District
obtain bo th a copy of [his petition] and Caterbone’s application for reconsideration.” The Court
does not nterpret this pleading to constitute a claim in this case based on a physical injury
Caterbon: suffered at LCP. As Caterbone will be permitted to file an amended complaint, he
may, ifh< \ chooses to do so, attempt to state such a claim therein.
2

APPENDIX A - Opinions Below

I

Page No. 19 of 25

Wednesday August 12,2020
r

e

Qy Pro Se Petitioner Stan J. Caterbone - From U.S. Third Circuit Case No. 19-2712 and U.S. District Court 19-2052

fact,” A eitzke v. Williams, 490 U.S. 319,325 (1989), and is legally baseless if it is “based on an
indispui ably meritless legal theory.” Deutsch v. United States, 67 F.3d 1080, 1085 (3d Cir.
1995). iVhether a complaint fails to state a claim under § 1915(e)(2)(B)(ii) is governed by the
same sfc ndard applicable to motions to dismiss under Federal Rule of Civil Procedure 12(b)(6),
see Tow setter v. McCullough, 184 F.3d 236,240 (3d Cir. 1999), which requires the Court to
determu le whether the complaint contains “sufficient factual matter, accepted as true, to state a
claim' to relief that is plausible on its face.” Ashcroft v. Iqbal, 556 U.S. 662,678 (2009)
(quotath ns omitted). Conclusory allegations do not suffice. Id. As Caterbone is proceeding
pro se, t te Court construes his allegations liberally. Higgs v. Att’y Gen., 655 F.3d 333,339 (3d
Cir. 201 ).
HI.

IISCUSSION
1 he vehicle by which a person may bring suit for a violation of the civil rights is Section

1983 of. itle 42 of the United States Code. The Section provides in part:
-very person who, under color of any statute, ordinance, regulation, custom, or
isage, of any State or Territory or the District of Columbia, subjects, or causes
o be subjected, any citizen of the United States or other person within the
• urisdiction thereof to the deprivation of any rights, privileges, or immunities
; ecured by the Constitution and laws, shall be liable to the party injured in an
i iction at law, suit in equity, or other proper proceeding for redress.
42 U.S.C. § 1983. “To state a claim under § 1983, a plaintiff must allege the violation of a right
secured b / the Constitution and laws of the United States, and must show that the alleged
deprivatic n was committed by a person acting under color of state law.” West v. Atkins, 487 U.S.
42,48 (IS 88).
Ct terbone s § 1983 Complaint attempts to state a First Amendment access-to-the-courts
claim. “A prisoner making an access-to-the-courts claim is required to show that the denial of
access caxjsed actual injury.” Jackson v. Whalen, 568 F. App’x 85, 87 (3d Cir. 2014) (per
3

APPENDIX A - Opinions Below

I

Page No. 20 of 25

Wednesday August 12,2020

("*oe'£\

10

i

it n.

r\ .

. ~

—•.

.......... ..................

by Pro Se Petitioner Stan J. Caterbone - From U.S. Third Circuit Case No. 19-2712 and U.S. District Court 19-2052

curiam (quoting Lewis v. Casey, 518 U.S. 343,350 (1996)). In other words, a prisoner claiming
that he was denied access to the courts must allege an injury traceable to the conditions of which
he com ilains. Diaz v. Holder, 532 F. App’x 61, 63 (3d Cir. 2013) (per curiam) (affirming
dismiss al of denial of access claims where plaintiff failed to tie alleged deficiencies in library to
harm in underlying action). In general, an actual injury occurs when a prisoner demonstrates that
a “nonfjivolous” and “arguable” claim was lost because of the denial of access to the courts.
Christo, ther v. Harbury, 536 U.S. 403,415 (2002). “[Tjhe underlying cause of action,. .. is an
element that must be described in the complaint.” Id. Furthermore, the right to access the courts
maybe satisfied if the plaintiff has an attorney. Diaz, 532 F. App’x at 63 (citing Bounds v.
Smith, 4 30 U.S. 817, 831 (1977) and Peterkin v. Jeffes, 855 F.2d 1021, 1042 (3d Cir. 1988)); see
also Prc ter v. City ofPhila., 542 F. App’x 135,137 n.4 (3d Cir. 2013) (per curiam).
1 'o the extent that Caterbone’s claim is based upon an alleged inability to access the
courts o. Lancaster County to adjudicate his criminal case, the fact that he has been represented
by counj el during the entire time he has been in custody at LCP renders the claim implausible
and subject to dismissal under § 1915(e)(2)(B)(ii). To the extent that the claim is based upon his
alleged i lability to access other courts before which he has pending cases, the claim is
implausi >le because Caterbone fails to allege that the denial of access caused him any actual
injury. ^ Tiile he alleges interference with his pending cases, he makes no assertion that a
“nonfhvc lous” and “arguable” claim was lost in any case.
A iditionally, Caterbone has only named LCP and Warden Steeberger as Defendants.
The § 19; S3 claim against LCP is dismissed as frivolous because a jail is not a “person” under
Section 1183. Miller v. Curran-Fromhold Corr. Facility, Civ. A. No. 13-7680,2014 WL
4055846, at *2 (E.D. Pa. Aug. 13, 2014) (citing Mitchell v. Chester Cty. Farms Prison, 426 F.

4

APPENDIX A - Opinions Below

I

Page No. 21 of 25

id

Wednesday August 12, 2020

by Pro Se Petitioner Stan J. Caterbone - From U.S. Third Circuit Case No. 19-2712 and U.S. District Court 19-2052

Supp. 171 (E.D. Pa. 1976). The claim against Warden Steeberger is implausible because there is
no alle jation that she was personally involved in denying Caterbone access to the courts and
there is no allegation upon which to base liability against her in her role as a supervisor of others
atLCP See Barkes v. First Corr. Med, Inc., 766 F.3d 307,316 (3d Cir. 2014), reversed on
other grounds by Taylor v. Barkes, 135 S. Ct 2042 (2015) (holding that there are only “two
genera ways in which a supervisor-defendant may be liable for unconstitutional acts nndertaVpn
by sub< rdinates. First, liability may attach if they, ‘with deliberate indifference to the
conseq lences, established and maintained a policy, practice or custom which directly caused
[the] cc nstitutional harm.’... Second, ‘a supervisor may be personally liable under § 1983 if he
or she j articipated in violating the plaintiffs rights, directed others to violate them, or, as the
person n charge, had knowledge of and acquiesced’ in the subordinate’s unconstitutional
conduci

(quoting AM ex rel. J.MK v. Luzerne Cty. Juvenile Det. Ctr., 372 F.3d 572,586 (3d

Cir. 20( 4) (alteration in original))).
Accordingly, the Court will dismiss the Complaint with prejudice against LCP and
without prejudice against Steeberger pursuant to 28 U.S.C. § 1915(e)(2)(B)(i) and (ii).
Caterbo te will be granted leave to file an amended complaint within thirty days if he is able to
cure the defects identified by the Court. An appropriate Order follows.
BY THE COURT:

5

APPENDIX A - Opinions Below
I

Page No. 22 of 25

Wednesday August 12,2020

(by Pro Se Petitioner Stan J. Caterbone - From U.S. Third Circuit Case No. 19-2712 and U.S. District Court 19-2052
l

wy V.

JU

UI o

IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF PENNSYLVANIA
STAN J. CATERBONE,
Plaintiff,
v.

CIVIL ACTION NO. 19-CV-2052

LANC iSTER COUNTY PRISON, et al,
Defendants.

JjU>~
^ND NOW, this

ORDER

(( day of June, 2019, upon consideration of Plaintiff Stan J.

Caterbc ne’s Motion to Proceed In Forma Pauperis and Prisoner Trust Fund Account Statement
(ECFN x 4), and his pro se Complaint (ECF No. 2), which raises claims under 42 U.S.C. §
1983, it is ORDERED that:
Leave to proceed informa pauperis is GRANTED pursuant to 28 U.S.C. § 1915.
■,v|<

' I

Stan J. Caterbone, #065238, shall pay the full filing fee of $350 in installments,

pursuan to 28 U.S.C. § 1915(b), regardless of the outcome of this case. The Court hereby
. directs t le Warden of Lancaster County Prison or other appropriate official to assess an initial
filing fe< s of 20% of the greater of (a) the average monthly deposits to Caterbone’s inmate
?

amount: or (b) the average monthlj^balance in Caterbone’s inmate account for die six-month
period a imediately preceding the filing of this case. The Warden or other appropriate official
sl&ll cal> ;ulate, collect, and forward the initial payment assessed pursuant to this Order to the
Court wi th a reference to the docket number for this case. In each succeeding month when the
amount i a Caterbone’s inmate trust fund account exceeds $10.00, the Warden or other
approprii ite official shall forward payments to the Clerk of Court equaling 20% of the preceding

APPENDIX A - Opinions Below

Page No. 23 of 25

Wednesday August 12,2020

(by Pro Se Petitioner Stan J. Caterbone - From U.S. Third Circuit Case No. 19-2712 and U.S. District Court 19-2052
" C» - —

month’s income credited to Caterbone’s inmate account until the fees are paid. F-ach payment
shall reference the docket number for this case.
3.

The Clerk of Court is directed to SEND a copy of this order to the Warden of

Lancas er County Prison.
The Complaint is DEEMED filed.
5.

The Complaint is DISMISSED with prejudice pursuant to 28 U.S.C. §

1915(e) C2)(B)(i) to the extent that Caterbone raises claims against Lancaster County Prison.
5.

The Complaint is DISMISSED out prejudice pursuant to 28 U.S.C. §

1915(e) .2XB)(ii) to the extent that Caterbone raises claims against Cheryl Steeberger.
Caterbone is given thirty (30) days to file an amended complaint. Any amended
complai it shall identify all defendants in the caption of the amended complaint in addition to
identify] ng them in the body of the amended complaint and shall state the basis for his claims
against«ach defendant. The amended complaint must be a complete document. Caterbone
should p rovide enough information for the Court to understand what happened to him and how
each nar led Defendant acted to cause him injur}'. When drafting his amended complaint,
Caterbo| .e should be mindful of the Court’s reasons for dismissing his claims as explained in the
Court’s 1 femorandum. Upon the filing of an amended complaint, the Clerk shall not
service u util so ORDERED by the Court.
8

The Clerk of Court shall send Caterbone a blank copy of the Court’s form

complair t to be used by a prisoner filing a civil rights action bearing the above civil action
number. Caterbone may use this form to file his amended complaint in the instant case if he
chooses t a do so.
9.

If Caterbone fails to file an amended complaint in accordance with paragraph

APPENDIX A - Opinions Below

Page No. 24 of 25

Wednesday August 12, 2020

Cby Pro Se Petitioner Stan J. Caterbone - From U.S. Third Circuit Case No. 19-2712 and U.S. District Court 19-2052
"ii —

seven (7) of this Order, his case may be dismissed for failure to prosecute without further notice.
BY THE COURT:

JEi

APPENDIX A - Opinions Below
I

Page No. 25 of 25

I. SCHMFHL, .T.

Wednesday August 12, 2020

